In the Supreme Court of the United States
Nicole Johnson-Gellineau,
Petitioner,
v.
Stiene & Associates, P.C.;
Christopher Virga, Esq.; Ronni Ginsberg, Esq.;
JPMorgan Chase Bank, National Association; Wells
Fargo Bank National Association,
As Trustee For Carrington Mortgage Loan Trust,
Series 2007-FRE1, Asset-Backed Pass-Through
Certificates,
Respondents.
CERTIFICATE OF SERVICE
COMES NOW Nicole Johnson-Gellineau, Petitioner in the
above captioned matter, and hereby respectfully certifies that three
true and correct copies of this Petition for a Writ of Certiorari and
Appendix have been forwarded by First Class Mail to:
Matthew J. Bizzaro
LAbbate, Balkan, Colavita & Contini, L.L.P.
1001 Franklin Ave
Garden City, NY 11530
516-294-8844
Fax: 516-294-8202
Email: mbizzaro@lbcclaw.com
Adam M. Swanson
McCarter & English, LLP
One Canterbury Green
201 Broad Street
Stamford, CT 06901
(203) 399-5928
aswanson@mccarter.com
I declare under penalty of peffamy that tlie prjfe going* is true and
correct.
Executed on May 17, 2021.
t?
l
Nicble Joh riSGellmeau, Petitioner

A

